@OCKLE

Legal Briefs

Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

No.

VILOX TECHNOLOGIES, LLC, EUGENE H. LUOMA,
AND DALI WIRELESS INC.,
Cross-Petitioners,
v.

ANDREI IANCU, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR,
U.S. PATENT AND TRADEMARK OFFICE,
Cross-Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the CONDITIONAL
CROSS-PETITION FOR WRIT OF CERTIORARI BY VILOX TECHNOLOGIES, LLC,
EUGENE H. LUOMA AND DALI WIRELESS INC. in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 5859 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

= Kenae Q. thos? Onan. Ole

My Comm. Exp. September 8, 2023

 

Affiant 40074
